              U.S. Department of Energy
              Office of Inspector General
              Office of Audits and Inspections




Audit Report
Mitigation of Natural Disasters at Los
Alamos National Laboratory




OAS-M-13-04                               June 2013
                                 Department of Energy
                                    Washington, DC 20585

                                          June 24, 2013


MEMORANDUM FOR THE DEPUTY ASSOCIATE ADMINISTRATOR FOR
                 INFRASTRUCTURE AND OPERATIONS, NATIONAL
                 NUCLEAR SECURITY ADMINISTRATION
               MANAGER, LOS ALAMOS FIELD OFFICE


FROM:                    George W. Collard
                         Assistant Inspector General
                            for Audits
                         Office of Inspector General
SUBJECT:                 INFORMATION: Audit Report on "Mitigation of Natural Disasters at
                         Los Alamos National Laboratory"

BACKGROUND

The Department of Energy's (Department) Los Alamos National Laboratory (Los Alamos) is part
of the National Nuclear Security Administration's (NNSA) nuclear weapons complex. Los
Alamos' primary responsibility is to ensure the safety, security and reliability of the Nation's
nuclear stockpile. Los Alamos employees and subcontractors work in close proximity to or in
contact with special nuclear materials, explosives and hazardous chemicals. Two sites where
such activities occur are the Area G Waste Storage and Disposal Facility (Area G) and the
Plutonium Facility (PF-4). Area G has been used for radiological waste disposal and storage
since 1957. Area G operations include receiving, processing, storing, shipping, and/or disposing
of waste, including low-level and transuranic waste. This activity is critical to meet a consent
order with the State of New Mexico to close Area G by December, 2015. PF-4 is a 1970s era
structure that supports pit manufacturing, surveillance and special plutonium recovery.

Los Alamos is at some risk of seismic events and susceptible to forest fires, including those
started by lightning. Since 2000, there have been two major forest fires that threatened Los
Alamos. Because of these concerns, we initiated this audit to determine whether NNSA had
evaluated, modified or upgraded existing nuclear facilities at Los Alamos to mitigate the effects
of seismic and fire natural disasters.

RESULTS OF AUDIT

Although Los Alamos had made progress in upgrading existing nuclear facilities, concerns
remained regarding the mitigation of risks related to natural disasters. Specifically:

   •   Seismic issues affecting PF-4 remain to be addressed. For example, fire suppression
       system and glove box stand improvements to mitigate the adverse consequences of a
       seismic event are not scheduled to be completed until 2014 and 2015, respectively.
   •   Fire protection and prevention vulnerabilities in Area G continue to exist. In particular,
       Los Alamos had not resolved all known fire suppression and lightening protection system
       deficiencies.

   •   Several known risks exist with compensatory measures implemented in Area G that may
       lessen their efficacy in mitigating natural disasters.

To its credit, Los Alamos has completed key compensatory measures, including physical
upgrades, to reduce seismic risk for PF-4, and as of April 2013, additional upgrades were in
process. With regard to Area G, Los Alamos recently implemented actions to mitigate the risk of
fire from natural disasters. In addition, since 2011, the Department and NNSA have committed
to the complete removal of all the non-cemented, above-ground transuranic waste from Area G
by June 30, 2014.

NNSA officials responsible for overseeing Los Alamos pointed out that decisions to budget and
schedule mitigation measures are based on factors including the probability of an event occurring,
such as a seismic event, and whether a structure is considered to be a permanent or limited life
facility. In their view, there is a rare probability of a seismic event occurring in Los Alamos of
sufficient magnitude to cause a significant plutonium release from PF-4. Additionally, with an
expected operational life of less than 5 years, Los Alamos considers Area G to be a limited-life
facility.

While a number of compensatory and corrective actions have been completed, in our view,
further actions are needed to mitigate existing vulnerabilities. As such, we made
recommendations to ensure that continued management attention is focused on addressing the
identified vulnerabilities.

                                       Plutonium Facility

Los Alamos has completed several physical upgrades to reduce seismic risk for PF-4. For
example, Los Alamos installed a new safety-class nuclear material storage system using fire
rated safes and containers, assessed and repaired the facility's main fire wall, strengthened the
roof, braced ventilation room columns and fan pads, and repaired the mezzanines located above
the Laboratory floor. These upgrades were completed as required by Department standards
based on revised site specific seismic hazards. These actions also addressed concerns initially
raised by the Defense Nuclear Facilities Safety Board (DNFSB) in October 2009, which
identified multiple, substantial deficiencies regarding potential exposures in the case of an
earthquake-induced fire.

Additionally, Los Alamos has scheduled upgrades to the fire suppression system and glove box
stands to be completed in 2014 and 2015, respectively. However, NNSA has identified new
seismic structural vulnerabilities in response to the DNFSB's concerns and initiated action on an
Unreviewed Safety Question (USQ) in September 2012. The USQ process is intended to alert
the Department of events, conditions or actions (both natural and man-made) that affect the
safety analysis of a facility or operation, and to ensure appropriate management action. It
involves keeping a safety analysis current by reviewing potential USQs, reporting them to the
Department, and obtaining approval from the Department prior to taking any action that involves

                                                2
a USQ. As a result of the USQ, Los Alamos has prepared an addendum to the safety analysis
governing operations of the facility. Los Alamos submitted the addendum in January 2013, it
was approved by NNSA in March 2013 and transmitted to Los Alamos in April 2013.

In addition, according to a July 2012 letter from the DNFSB, PF-4 lacks the structural resilience
and redundancy required by modern building codes and makes it susceptible to structural failure
if subjected to the strong seismic ground motions. In January 2013, the DNFSB informed the
Department that while the structural upgrades that are necessary to fix the vulnerabilities at PF-4
are currently projected to take several years to complete, the potential for very high offsite dose
consequences remains. Los Alamos Field Office officials noted that while the dose consequence
of a seismic event at PF-4 is high, the probability of a large earthquake that would cause a
significant plutonium release is low. The officials also stated that although the seismic issues
still need to be addressed, NNSA's decision process is based on risk in accordance with
established Department policy. In a March 2013 letter to the DNFSB, the Secretary of Energy
responded to the seismic risks identified in DNFSB's January 2013 letter. The Secretary stated
that the Department is continuing to take further actions to reduce the amount of plutonium at
PF-4 and to improve the facility's seismic capabilities. For example, NNSA plans to implement
a new safety-class container for heat source plutonium. The Secretary concluded that PF-4 can
continue to operate safely while longer-term structural modifications are completed. As of April
2013, the engineering work on the modifications was in progress, but completion timeframes for
the modifications had not been established.

                                    Area G Lightning and Fire Protection

Although Los Alamos had made fire prevention and protection improvements to Area G,
vulnerabilities continue to exist. As of August 2012, Area G had 11 waste storage dome
structures that housed over 5,600 containers with transuranic waste. According to a 2010 Los
Alamos fire hazard analysis for Area G, wildland fires result in a high hazard rating for the dome
structures. Since March 2011, Los Alamos has repaired the Lightning Protection Systems for
three waste storage dome structures, added remotely monitored automatic fire suppression
systems for one of the structures, restored a previously inoperable remotely monitored automatic
fire suppression system for another dome structure, and expanded vegetation control to reduce
the incidence of combustibles in areas beyond the Area G fence.

Los Alamos, however, has not resolved all known fire suppression system and Lightning
Protection System deficiencies. Although Los Alamos has established compensatory mitigation
measures to address known deficiencies in Area G, we noted a number of concerns regarding the
efficacy of such mitigation measures. While the Lightning Protection Systems and fire
suppression systems at Area G are not recognized as viable engineered controls, which provide
the most robust approach to address a nuclear safety hazard, they are considered safety support
systems in the nuclear safety analysis for Area G. The Lightning Protection Systems are
identified in the safety analysis as part of the facility's defense-in-depth. 1




1
  Defense-in-depth builds in layers of defense against the release of hazardous materials so that no one layer by itself
is completely relied upon.

                                                           3
Given Los Alamos' stated reliance on these systems, continuing problems with coverage and
system upkeep is troubling. For example, a 2008 Fire Hazard Analysis for Area G identified 11
of the domes that lacked remotely monitored automatic fire suppression systems. In addition, we
noted that wind sway and snow loading have caused numerous pipe breaks and freeze damage to
fire sprinkler piping within the Dome 229 and 230 structures, resulting in long-standing and
repeated fire suppression system impairments. Furthermore, a Los Alamos official stated in
March 2012, that the fire suppression systems for two Area G structures (Dome 33 and Building
412) were unreliable and inoperable due to piping integrity issues and a failed air compressor.
Although Los Alamos corrected the Dome 33 issues, it provided only a temporary solution for
Building 412 that involved connecting compressed nitrogen cylinders to a high-pressure hose.
When we discussed this issue with Los Alamos officials, they stated that they had requested a
temporary modification extension to allow continued operation without a permanent, operational
fire suppression system and that the configuration for the temporary modification was compliant
with fire protection requirements. In its response to our draft report, NNSA stated that Los
Alamos has scheduled to provide a permanent solution by replacing the air compressor in June
2013.

Department Order 420.1B, Facility Safety, 2 requires automatic fire extinguishing systems
throughout all facilities and areas with significant life safety hazards or fire loss potential in
excess of limits defined by the Department. Consequently, Los Alamos submitted an exemption
request to NNSA in January 2011, which includes compensatory measures for the 10 domes not
equipped with the automatic fire extinguisher system, to relax the fire protection requirements set
forth in the Order. As of March 2013, NNSA had reviewed the exemption request and was in the
process of providing feedback to Los Alamos. NNSA will require Los Alamos to re-submit a
revised exemption request to NNSA for approval.

We noted several known risks associated with one of the compensatory measures cited in Los
Alamos' exemption request that may lessen the effectiveness of the measures. Los Alamos
believes the fire suppression deficiencies with the dome structures are mitigated by temporary
compensatory measures, such as the limited combustible fabric of the waste storage domes. The
exemption request stated that the dome fabric was a compensatory measure. In addition, the fire
hazard analysis supporting the exemption request noted that the fabric is not expected to provide
a propagation path for fire within the dome. However, Los Alamos officials told us that the
dome fabric has exceeded its expected in-service life of 15-20 years and its fire retardant
properties are likely diminished but unknown. We also noted that the nuclear safety analysis did
not credit the dome fabric as a mitigation factor in any accident scenarios. Fire protection staff
who prepared the fire hazard analysis stated they did not fully participate in the nuclear facility
safety analysis and noted that features that contribute to reducing fire loss risk may not directly
contribute to nuclear safety risk reduction. In response to our concerns, in January 2013, a Los
Alamos Field Office official stated that the Los Alamos Field Office will be withdrawing the
exemption request for revision to clarify that the dome fabric cannot be relied upon to retain heat
or smoke.

Finally, a February 2011 Los Alamos inspection identified Lightning Protection System
impairment issues for two of the dome structures (153 and 283), but as of March 2013, (2 years

2
    Department Order 420.1B was replaced by Department Order 420.1C in December 2012.

                                                       4
later) the issues were still pending resolution. According to a June 2011 NNSA Los Alamos
Field Office assessment, there was no assurance that the Lightning Protection System could
perform the designed safety function. Los Alamos installed temporary modifications to keep the
Lightning Protection System operable, and Los Alamos officials pointed out that the temporary
modifications were appropriate. However, Los Alamos officials acknowledged in November
2012, that they did not have plans for permanent solutions. In January 2013, Los Alamos
submitted an engineering service request for design support to make the temporary modifications
permanent.

Continuing concerns about protection improvements prompted the DNFSB to report in
September 2012, that the delay in taking corrective action contributes to a degraded safety
posture at Area G. Even though we agree Area G is considered a limited-life facility, we believe
it is still important to address risks which affect the facility's safety support systems.

                                     Related Safety Controls

Los Alamos' processes and procedures have not always been fully effective in ensuring that
hazards, including natural disasters, are fully analyzed and effectively mitigated. Federal
Regulation 10 CFR 830, Nuclear Safety Management, requires that the safety analysis for a
nuclear facility identify both natural and man-made hazards associated with the facility, evaluate
conditions including consideration of natural and man-made external events, and derive the
hazard controls necessary to ensure adequate protection of workers, the public, and the
environment. To address these requirements, Los Alamos instituted a New Information (NI)
process to identify potential inadequacies with the safety analysis for a nuclear facility.
However, assessments performed by the Department's Office of Health, Safety and Security, Los
Alamos and the Los Alamos Field Office have identified concerns regarding Los Alamos not
using the NI process correctly.

Symptomatic of such concern, we found that a 2011 System Health Report review performed by
Los Alamos identified deteriorated gaskets on waste containers stored at Area G, but according
to a Los Alamos official, the issue was never entered into the NI process. While the Area G
safety analysis does not recognize the gaskets as an engineered safety control, it does consider
the waste containers to be a major contributor to defense-in-depth by providing containment of
hazardous or radiological materials. When we discussed this with a Los Alamos official, he
stated that for unknown reasons, the deteriorated gaskets had not been entered into the NI
process. As of February 2013, Los Alamos was revising the NI process to clarify how it should
be used.

Also, as previously noted, the USQ process is a mechanism (required by 10 CFR 830) intended
to alert the Department of events, conditions, or actions, both natural and man-made, which
affect the safety analysis of a facility or operation and ensure appropriate management action. A
2008 Los Alamos Field Office surveillance review of institutional procedures at selected Los
Alamos nuclear facilities found that USQ determinations were not being completed and reported
as required. As a result, a revised USQ procedure was implemented in September 2009.
However, an April 2012 Los Alamos Field Office assessment covering several nuclear facilities
identified systemic weaknesses in the previously performed USQ determinations that could
invalidate the results, an issue that could impact the resolution of safety issues. For example the
assessment concluded that the information contained in the USQ determination supporting an
                                                 5
exception to waste disposal requirements did not contain sufficient information for granting the
exception. Consequently, as of February 2013, the USQ process was under revision to clarify
the information needed for the process.

Finally, the Office of Inspector General recently issued an Inspection Report on Radiological
Waste Operations in Area G at Los Alamos National Laboratory, (INS-O-13-03, March 2013),
that identified opportunities to further improve the consistency of Area G operational activities,
including responses to natural disasters such as fires, with safety requirements. For example, the
inspection found that the emergency access roadway in Area G was blocked on two occasions; a
practice that could limit access for wide vehicles such as ambulances and fire trucks. While
there is no Los Alamos or Department policy or procedure that addresses this issue, the roadway
in question is considered an "emergency access route" where the Los Alamos Fire Department
has the responsibility to periodically conduct "walk-downs" to identify obstacles that impede
emergency access. Therefore, we believe that delayed emergency vehicle access due to roadway
obstruction could lead to additional and/or more severe worker injuries.

RECOMMENDATIONS

While Los Alamos has taken significant actions to mitigate risks related to natural disasters,
continued effort is needed to ensure the Department meets facility safety and nuclear safety
standards in Area G and PF-4, which are critical to sustaining public trust and confidence.
Therefore, Los Alamos should give full consideration to hazard controls and continue
improvements that are needed to ensure the safety of the workers, the public, and the
environment. To this end, we recommend that the Deputy Associate Administrator for
Infrastructure and Operations:

   1. Complete the review of the Area G exemption request for the lack of automatic fire
      suppression systems.

In addition, we recommend that the Los Alamos Field Office Manager ensure:

   2. PF-4 seismic upgrades are completed in a timely manner; and

   3. Los Alamos completes the previously initiated revisions for the NI and USQ processes.

Regarding Lightning Protection Systems and fire suppression system deficiencies in Area G, we
recognize that the facility is a limited life facility and that Los Alamos plans to remove
vulnerable transuranic waste from the site by June 30, 2014 as a risk mitigation measure.
Accordingly, it is management's responsibility to ensure that upgrades to protective systems are
cost-effective in mitigating risks. Therefore, we also recommend that the Los Alamos Field
Office Manager:

   4. Ensure that Los Alamos' planned removal of vulnerable transuranic waste is carried out as
      scheduled and that temporary protective measures are effective and carried out in a timely
      manner.




                                                 6
MANAGEMENT REACTION

Management concurred with the report's recommendations and indicated that corrective actions
have been or would be initiated. Management's proposed and initiated corrective actions are
responsive to our recommendations. We appreciate management's recognition that additional
action is needed to mitigate potential risks and that corrective actions are underway.
Management's comments are included in Attachment 2.

Attachment

cc: Deputy Secretary
    Acting Administrator, National Nuclear Security Administration
    Chief of Staff




                                              7
                                                                                    Attachment 1

                      OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

To determine if the National Nuclear Security Administration (NNSA) has evaluated, modified,
or upgraded existing nuclear facilities in order to mitigate the effects of natural disasters.

SCOPE

This audit was performed between January 2012 and April 2013, at the Los Alamos National
Laboratory (Los Alamos) and the Los Alamos Field Office (Field Office), located in Los
Alamos, New Mexico, and the NNSA Complex, located in Albuquerque, New Mexico. Our
scope primarily encompassed the Los Alamos Technical Area 54, Area G Waste Storage and
Disposal Facility and activities associated with waste disposition operations. We also reviewed
the seismic upgrade activities for the Los Alamos Plutonium Facility located in Technical Area
55.

METHODOLOGY

To accomplish the audit objective, we:

    •   Determined whether evaluations, modifications, and upgrades are proceeding as
        planned;

    •   Identified the assets that have not been maintained and pose a safety concern;

    •   Determined real property asset management goals and performance expectations;

    •   Identified the facility evaluations and assessments that have found potential weaknesses;
        and

    •   Held discussions with personnel from the Los Alamos Field Office, Los Alamos, and
        NNSA.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. The audit included tests of
controls and compliance with laws and regulations necessary to satisfy the audit objective.
Because our review was limited, it would not necessarily have disclosed all internal control
deficiencies that may have existed at the time of our audit. During the audit, we assessed the
Department's compliance with the GPRA Modernization Act of 2010 and found that the
Department had established performance measures related to Area G waste disposition projects.
We did not rely on computer-processed data to satisfy our audit objective. Management waived
an exit conference.



                                               8
    Attachment 2




9
     Attachment 2 (continued)




10
     Attachment 2 (continued)




11
                                                                    IG Report No. OAS-M-13-04

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report that would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page

                                       http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form.
